             OFFICE OF
             INSPECTOR
             GENERAL
             UNITED STATES POSTAL SERVICE




 Flint, MI Processing and Distribution
          Center Consolidation

                    Audit Report




                                            October 6, 2011

Report Number EN-AR-12-001
                                                                           October 6, 2011

                                            Flint, MI Processing and Distribution Center
                                                                          Consolidation

                                                           Report Number EN-AR-12-001



IMPACT ON:                                      WHAT THE OIG RECOMMENDED:
Mail processing operations in the Detroit       We are not making recommendations in
District of the Great Lakes Area.               this report because our findings support
                                                the consolidation.
WHY THE OIG DID THE AUDIT:
Our objectives were to assess the               WHAT MANAGEMENT SAID:
business case and operational impacts           Management elected not to provide
of the consolidation. We performed this         written comments because there were
review as a result of a congressional           no recommendations.
request on the consolidation of mail
processing operations from the Flint
Processing & Distribution Center
(P&DC) into the Michigan Metroplex              Link to review the entire report
P&DC.

WHAT THE OIG FOUND:
A valid business case exists to
consolidate destinating mail processing
operations. Our analysis indicated that
(1) adequate capacity exists to process
additional mail volumes at the gaining
facility, (2) customer service will be
minimally impacted with service scores
being maintained or improved, (3)
efficiency at the Michigan Metroplex
P&DC should continue to improve with
the addition of mail volume from the
Flint P&DC, (4) no career employee will
lose their job with the postal service;
however, some reassignments might
occur, and (5) equipment relocation
costs were overstated but had no
material impact on the business case.
October 6, 2011

MEMORANDUM FOR:             CHARLES E. HOWE
                            DISTRICT MANAGER, DETROIT DISTRICT



                                 igned by Office of Inspector Gen
                                  VERIFY authenticity with e-Sign
                            for
FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                              for Mission Operations

SUBJECT:                    Audit Report – Flint, MI Processing and Distribution
                            Center Consolidation (Report Number EN-AR-12-001)

This report presents the results of our audit of the Flint, MI Processing and Distribution
Center consolidation (Project Number 11XG033EN000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael A. Magalski, director,
Network Optimization, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Jo Ann Feindt
    David E. Williams
    Jagmohan S. Bedi
    Nancy D. Schoenbeck
    Corporate Audit and Response Management
                                                 TABLE OF CONTENTS


Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Capacity ............................................................................................................................... 2

Customer Service ................................................................................................................ 2

   EXFC Scores ................................................................................................................... 3

   24-Hour Clock Indicators ................................................................................................. 4

   Service Standards ........................................................................................................... 5

Efficiency ............................................................................................................................. 6

Employee Impact ................................................................................................................. 7

Cost Savings........................................................................................................................ 7

   One-Time Costs ............................................................................................................... 9

Potential Risks ................................................................................................................... 10

Recommendations ............................................................................................................ 10

Appendix A: Additional Information................................................................................... 11

   Background .................................................................................................................... 11

   Objectives, Scope, and Methodology ........................................................................... 13

   Prior Audit Coverage ..................................................................................................... 15
Flint, MI Processing and Distribution
Center Consolidation                                                                           EN-AR-12-001


Introduction

This report presents the results of our audit of the Flint, MI Processing and Distribution
Center (P&DC) consolidation into the Michigan Metroplex P&DC (Project Number
11XG033EN000). The report responds to a congressional request. Our objectives were
to assess the business case and operational impacts of the proposed consolidation.
The audit addresses strategic, financial, and operational risks. See Appendix A for
additional information about this audit.

                         Illustration 1: Flint, MI Post Office® and P&DC




Source: U.S. Postal Service Office of Inspector General (OIG) photograph taken May 25, 2011.


Conclusion

A valid business case exists to consolidate mail processing operations from the
Flint P&DC into the Michigan Metroplex P&DC to achieve cost savings of approximately
$6 million annually.

Our independent modeling of consolidation opportunities determined this consolidation
has merit. Our model ranked the consolidation of the Flint P&DC into the Michigan

                                                        1
Flint, MI Processing and Distribution
Center Consolidation                                                                                   EN-AR-12-001


Metroplex P&DC in the top 20 percent of potential consolidation scenarios. 1 Our
analyses also indicated that:

   Adequate capacity exists to process additional mail volume at the Michigan
    Metroplex P&DC.

   Customer service will be minimally impacted with service performance being
    maintained or improved.

   Efficiency at the Michigan Metroplex P&DC should continue to improve with
    additional mail volume from the Flint P&DC.

   No career employee will lose their job with the U.S. Postal Service; however, some
    reassignments might occur.

   Equipment relocation costs were overstated because Area Mail Processing (AMP)
    cost data guidelines were not followed. The cost overstatement did not have a
    significant impact on the business case.

Capacity

Adequate capacity exists at the gaining facility to process the increased mail volume as
a result of the proposed consolidation. Specifically, the increase in total pieces handled
(TPH)2 volume at the Michigan Metroplex P&DC will be about 16 percent, which
represents a small increase to Michigan Metroplex P&DC current mail processing
operations. In addition, six Delivery Barcode Sorter (DBCS) machines and one
Automated Flat Sorting Machine (AFSM) will be transferred to the Michigan Metroplex
P&DC from the Flint P&DC as part of the consolidation. During onsite observations with
management at the Michigan Metroplex, we identified excess space that could
accommodate equipment from the Flint P&DC.

Customer Service

The consolidation should have minimal impact on customer service. 3 Based on fiscal
years (FY) 2010 and 2011 through June 2011 service performance, the Michigan
Metroplex P&DC generally met or exceeded service results of the Flint P&DC. However,
the Michigan Metroplex P&DC had difficulty cancelling 80 percent of collection mail by
8:00 p.m. and meeting the Trips on Time to Delivery Units 24-hour clock indicators. 4



1
  The model identifies full AMP consolidation opportunities using eight consistent, objective key indicators grouped
into the following five categories: location, service, capacity used, facility type, and efficiency.
2
  The number of handlings necessary to distribute each mailpiece from the time of receipt to dispatch.
3
  We reviewed three measures of customer service: the External First-Class (EXFC) Measurement system, the
24-hour clock indicators, and the projected service standard upgrades and downgrades.
4
  24-hour clock indicators measure key indicators of operating performance at mail processing plants, which may
influence service.


                                                          2
Flint, MI Processing and Distribution
Center Consolidation                                                                              EN-AR-12-001


While these indicators were below established goals, they had minimal impact on the
Michigan Metroplex’s EXFC 5 service scores.

EXFC Scores

During FY 2010 and through Q3, FY 2011, the Michigan Metroplex P&DC had higher
EXFC scores than the Flint P&DC in two categories – overnight and 3-day service;
however, 2-day service scores were lower. In addition, the Michigan Metroplex P&DC
exceeded the national goal for overnight EXFC Service Scores in FY 2010
(see charts 1, 2, and 3).

                              Chart 1: Overnight EXFC Service Scores




5                                                                                  ®
    EXFC is a measurement system the Postal Service uses to measure First-Class Mail (FCM) service performance.


                                                        3
Flint, MI Processing and Distribution
Center Consolidation                                                            EN-AR-12-001


                             Chart 2: 2-Day EXFC Service Scores




                             Chart 3: 3-Day EXFC Service Scores




24-Hour Clock Indicators

The Michigan Metroplex P&DC met most of its 24-hour clock indicators while the Flint
P&DC met applicable indicators during FY 2010 and through Q3, FY 2011. The most
significant challenge at the Michigan Metroplex P&DC involved cancelling collection
mail. Some of this mail was moved to the Michigan Metroplex P&DC in September
2009. In July 2011, management initiated a local Lean Six Sigma project to simplify and
clarify mail separations and instructions for collection mail. Consequently, this indicator
should not negatively impact EXFC service scores for the Michigan Metroplex P&DC
(see Table 1).


                                             4
Flint, MI Processing and Distribution
Center Consolidation                                                                                   EN-AR-12-001




         Table 1: 24-hour Clock Indicators (FY 2010 and FY 2011, Quarters 1-3)

             Indicators                       Flint FY10      Metroplex       Flint Q3, FY    Metroplex
                                              (Data in        FY10            2011 (Data      Q3, FY
                                              Percentage)     (Data in        in              2011 (Data
                                                              Percentage)     Percentage)     in
                                                                                              Percentage)
                                                                                        6
            Cancel Collection Mail by         0               70.1            No Data         68.2
            8:00 p.m. (National Goal is
            80 percent)
            Clear Outgoing Primary by         0               95.5            100             95.0
            11:00 p.m. (National Goal
            is 100 percent)
            Clear Outgoing Secondary          0               95.0            100             88.1
            by 12:00 a.m.(National
            Goal is 100 percent)
            Clear Managed Mail                92.8            77.9            No Data         85.4
            Program by 12:00 a.m.
            (National Goal is100
            percent)
            Assign Mail to                    100             99.8            100             99.4
            Commercial/FedEx by 2:30
            a.m. (National Goal is 100
            percent)
            Clear Delivery Point              100             99.9            99.9            99.9
            Sequence 2nd Pass by
            7;00 a.m. (National Goal is
            100 percent)
            Trips on Time between             96.2            75.4            96.2            83.4
            4:00 a.m.-9:00 a.m.
            (National Goal is 86.9
            percent)

             Color Code Legend:
                                           Green (80-100%)        Yellow (75-79%)           Red (0-74%)

Service Standards

Service standards will be minimally impacted by the consolidation with standards being
maintained or improved. The Postal Service indicated in the AMP study that the
consolidation would be service neutral with zero upgrades or downgrades to FCM,
Priority Mail®, or any other mail class. However, the supporting AMP service standards
worksheet showed eight upgrades for Periodicals, 12 upgrades for Standard Mail, and
12 upgrades for Package Services (see Table 2). Local managers indicated they took a
conservative approach and reported the service standards with exceptions 7 for FCM

6
  System data not available.
7
  Postal Service management reviews and discusses preliminary service standard changes with managers at the
consolidated facilities. If local management believes they are not able to meet preliminary Service Standard Directory
(SSD) results, they will report standards based on what they believe are achievable.


                                                          5
Flint, MI Processing and Distribution
Center Consolidation                                                                                 EN-AR-12-001


and priority mail, resulting in a service neutral position with no changes to the service
standards. Table 2 shows the upgrades reported in the AMP study worksheets dated
May 27, 2011.

              Table 2: Postal Service Analysis of Service Standard Impacts
                  Mail Class Upgrades Downgrades               Net
                                                             Change
                    First-Class              0                    0                  0
                    Priority                 0                    0                  0
                    Periodicals              8                    0                  8
                    Standard                 12                   0                 12
                    Package
                    Services                 12                   0                 12
                    Total                    32                   0                 32

For our analysis, we used the SSD 8 and identified upgrades in service standards 9 for all
mail classes. Table 3 shows our analysis of service standard impacts.

                     Table 3: OIG Analysis of Service Standard Impacts
                     Mail Class Upgrades Downgrades             Net
                                                             Change
                    First-Class              10                   0                 10
                    Priority                 10                   0                 10
                    Periodicals              18                   0                 18
                    Standard                 12                   0                 12
                    Package
                    Services                 12                   0                 12
                    Total                    62                   0                 62

The consolidation will have no impact on the Flint Post Office’s 10 retail window, delivery
unit, and business mail entry unit. Additionally, the collection boxes on site at the Flint
P&DC will remain.

Efficiency

The Michigan Metroplex P&DC has improved efficiency since the initial consolidation in
FY 2010. Productivity at the facility has increased by 5 percent year-to-date (YTD) in
FY 2011. Many factors — including the mail mix, type of sortation, and size of the plant
— impact breakthrough productivity initiative (BPI) scores. BPI scores show the
performance of plants compared to established performance expectations, with higher

8
  A web-based system that provides mail class service standards information to customers via the Postal Service’s
intranet.
9
  Service standards are defined as a stated goal for service achievement for each mail class. Service standards
represent the level of service the Postal Service strives to provide to customers and are considered one of the
primary operational goals against which service performance is measured. An upgrade or downgrade means that
service between two ZIP Codes is either faster or slower than it was before a change.
10
   The Flint Post Office services mail with 3-digit ZIP Codes 484 and 485.




                                                         6
Flint, MI Processing and Distribution
Center Consolidation                                                           EN-AR-12-001


scores representing better performance. Table 4 shows productivity scores for the
Michigan Metroplex P&DC for FYs 2010 and 2011, YTD. The productivity scores should
continue to improve with the addition of the Flint, MI mail.

                                 Table 4: Michigan Metroplex BPI Scores

                                                               FY 2011
                                    Facility       FY 2010      YTD11
                                                    68.6
                                MI Metroplex       percent   71.9 percent

Employee Impact

Consolidation of the Flint P&DC into the Michigan Metroplex P&DC will have a
significant impact on employees. A reduction of 105 full-time equivalent (FTE) craft
positions and eight Executive and Administrative Schedule (EAS) positions will occur at
the Flint P&DC. However, management may offer employees positions at the Michigan
Metroplex P&DC and opportunities to fill other vacancies in the Detroit District.

We performed a 3-year attrition trend analysis of the Flint and Michigan Metroplex
facilities for FYs 2008, 2009, and 2010 to determine projected employee reductions.
The 3-year average attrition rate for the Flint P&DC was 18 employees and the rate for
the Michigan Metroplex P&DC was 47 employees. Based on this information,
management could place the number of employees to be excessed because of the
consolidation (105 craft and eight EAS positions) in less than 2 years. As of
June 23, 2011, three employees at the Flint P&DC and 27 employees at the Michigan
Metroplex left employment during FY 2011. Attrition will reduce the number of
employees impacted by the consolidation.

Cost Savings

The $6 million total annual savings projections were validated and will result primarily
from mail processing workhour reductions. The Postal Service estimated the total first
year savings to be $5,866,395 from the consolidation. However, the OIG estimated a
slightly higher first-year savings of $5,897,370 (see Chart 4). We based our cost
analyses on the June 16, 2011 version of the study.




11
     FY 2011 ,YTD includes Quarters 1 through 3.


                                                    7
Flint, MI Processing and Distribution
Center Consolidation                                                                 EN-AR-12-001



                                  Chart 4: Cost Savings Comparison

                                                                    OIG Analysis Based
                                                AMP Study (June
                Savings/Cost                                         on June 16, 2011
                                                16, 2011 Version)
                                                                         Version

     Mail Processing Craft Workhour
                                                   $3,850,767           $3,850,767
                Savings
               Non-Mail
       Processing/Management +
     Shared Labor Distribution Codes                $579,258             $579,258
         Workhour Savings (less
     maintenance and transportation)

         Management 12 Workhour
                                                    $837,684             $837,684
               Savings


          Transportation Savings                   ($326,355)           ($326,355)


           Maintenance Savings                     $1,105,659           $1,105,659


               Space Savings                              $0               $0



          Total Annual Savings                     $6,047,012           $6,047,012




           Total One-Time Costs                    ($180,617)           ($149,642)




        Total First-Year Savings                   $5,866,395           $5,897,370




12
     EAS (Executive Administrative Schedule).


                                                      8
Flint, MI Processing and Distribution
Center Consolidation                                                        EN-AR-12-001


One-Time Costs

We identified an additional proposed savings of $30,975 in one-time costs.
Management overstated equipment relocation costs by using the wrong guidelines for
the calculation.

The Flint AMP identified six DBCS machines and one AFSM 100 machine for transfer to
the Michigan Metroplex P&DC. According to Postal Service-approved
protocols, relocation cost estimates are based on the type of equipment and the
distance. The cost to move equipment from one location to another is divided into two
cost estimate categories; greater than 45 miles and equal to or less than 45 miles. The
distance between the Flint, MI P&DC (losing facility) and the Michigan Metroplex P&DC
(gaining facility) is approximately 35.8 miles. We found that management used the
correct cost estimate for the six DBCS machines. However, they inadvertently used the
“greater than 45 miles” cost estimate category for the AFSM 100 machine, resulting
in an estimated cost of $139,667 instead of $108,692. As a result, we reduced the total
one-time costs from $180,617 to $149,642 increasing the first-year cost savings.
     Illustration 2: A DBCS Machine at the Flint P&DC slated for transfer to the
                            Michigan Metroplex P&DC
                                                .




Source: OIG photograph taken on May 25, 2011.




                                                9
Flint, MI Processing and Distribution
Center Consolidation                                                               EN-AR-12-001


Potential Risks

Identifying key risks could assist management when making decisions and taking
action. As a r esult, we concluded the Flint P&DC consolidation has strategic, financial,
and operational risks that need to be managed during this transition. We have
recommended in the past that the Postal Service use a transition team from
headquarters to assist in full consolidations to ensure they are performed effectively.
Also, the timing of the consolidation is important, as we have seen more success with
consolidations that are implemented outside the large volume seasons, such as the fall
mailing season. The Flint P&DC consolidation is scheduled for implementation on
December 31, 2011.

                                              Key Risks
    Risk          Risk Factor            Probability  Impact                Risk
 Category
Strategic        Stakeholder            High          Medium   Changes to network
                 Relations                                     encounter resistance
                                                               and can delay/terminate
                                                               consolidations.
Financial        Labor Costs            High          High     There is a lack of flexibility in
                                                               adjusting workhours to
                                                               workload associated with
                                                               consolidations and employee
                                                               moves.
Operational      Service                Medium        High     Customer service could be
                                                               impacted during
                                                               implementation due to
                                                               increased mail volumes from
                                                               the fall mailing season.
Operational      Real                   High          Medium   Lack of efficient and cost
                 Estate/Space                                  effective use and disposition
                 Management/                                   of excess space and
                 Equipment                                     equipment after the
                                                               consolidation.

Recommendations

We are not making recommendations in this report because our findings support the
consolidation.




                                                 10
Flint, MI Processing and Distribution
Center Consolidation                                                                               EN-AR-12-001


                                Appendix A: Additional Information

Background

In testimony before Congress in June 2010, 13 the U.S. Government Accountability
Office (GAO) found that deteriorating financial conditions and declining mail volume
have reinforced the Postal Service’s need to increase operational efficiency and reduce
expenses in its mail processing network. The GAO states that one of the initiatives,
AMP proposals, is intended to reduce costs and increase efficiency by making better
use of excess capacity or underused resources, primarily at Postal Service P&DCs. The
Postal Service AMPs may involve consolidating originating operations (canceling and
sorting locally generated mail), destinating operations (sorting and preparing mail
received from more distant areas for local delivery), or both.

Title 39 U.S.C. § 101, Part 1, Chapter 1, states that the Postal Service “…shall provide
prompt, reliable, and efficient services to patrons in all areas….” Further, the
September 2005 Postal Service Strategic Transformation Plan states, “The
Postal Service will continue to provide timely, reliable delivery to every address at
reasonable rates.” The Postal and Accountability Enhancement Act, P.L. 109-435,
Title II, dated December 20, 2006 14 highlights “. . . the need for the Postal Service to
increase its efficiency and reduce its costs, including infrastructure costs, to help
maintain high quality, affordable postal services. . . .”

On September 22, 2009, the Postal Service completed the transfer of Flint’s P&DC
originating mail operations to the Michigan Metroplex P&DC. The final post
implementation review was completed and signed on May 23, 2011 showing a total
annual saving of $2,292,466. The majority of the savings were due to workhour
reductions.

On November 16, 2010, the Postal Service initiated a feasibility study for the AMP
consolidation of the Flint P&DC destinating mail operation to the Michigan Metroplex
P&DC. The study was approved on September 2, 2011 and implementation is
scheduled for December 31, 2011.The two mail processing facilities are approximately
38.5 miles apart, in the Detroit District (previously Southeast Michigan District) of the
Postal Service’s Great Lakes Area. The AMP feasibility study was based on operational
data from October 1, 2009, to September 30, 2010. As required by policy, 15 Postal
Service officials solicited public input shortly thereafter. Stakeholder responses resulted
in congressional opposition from Representative Dale E. Kildee of Michigan’s 5th
Congressional District and a request for review of the feasibility study.

Our model ranked the consolidation of the Flint P&DC into the Michigan Metroplex
P&DC in the top 20 percent of potential consolidation scenarios. The model identifies

13
   Testimony to the Congressional Committees: Mail Processing Network Initiatives Progressing and Guidance for
Consolidating Area Mail Processing Operations Being Followed (GAO-10-731, dated June 2010).
14
   Public Law 109-435, 120 Stat. 3189, December 20, 2006.
15
   Handbook PO-408, Area Mail Processing Guidelines.


                                                       11
Flint, MI Processing and Distribution
Center Consolidation                                                             EN-AR-12-001


full AMP consolidation opportunities using eight consistent, objective key indicators
grouped into the following five categories: location, service, capacity used, facility type,
and efficiency.
                     Map 1: Michigan’s 5th Congressional District 16




16
     Source: The National Atlas website (www.nationalatlas.gov).


                                                          12
Flint, MI Processing and Distribution
Center Consolidation                                                       EN-AR-12-001


                       Map 2: Flint P&DC (1) and Metroplex P&DC (2)




Source: USPS


Objectives, Scope, and Methodology

The objectives of this audit were to assess the business case and operational impacts
of the proposed consolidation. In response to the congressional request, we evaluated
the workforce and operational impacts, service implications, efficiency gains, and
savings projections of the Flint P&DC into the Metroplex P&DC consolidation proposal.

We reviewed current and historical data for the Flint, MI and Michigan Metroplex
facilities, including data from the period covered by the AMP feasibility study
worksheets. We conducted on-site observations during the week of May 22, 2011,
interviewed Postal Service officials and employees, and reviewed applicable Postal
Service guidelines. We used the AMP consolidation proposal, dated May 27, 2011, as
the basis for our review. However, management revised the AMP proposal on


                                            13
Flint, MI Processing and Distribution
Center Consolidation                                                           EN-AR-12-001


June 16, 2011, to reflect changes in transportation costs only. We recognized the
revision and adjusted our validations accordingly. We generated reports and prepared
analyses using Postal Service databases to confirm information related to capacity,
workhours, staffing, transportation, and service standards regarding the proposed
consolidation. These databases included:

   Activity-Based Costing
   Enterprise Data Warehouse
   Service Standard Directory
   Transit Time Measurement System
   Transportation Contract Support System
   Web Complement Information System

We conducted this performance audit from April through October 2011, in accordance
with generally accepted government auditing standards and included such tests of
internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on September 20, 2011, and included
their comments where appropriate.

We assessed the reliability of workhour, staffing, transportation, and service data by
comparing our results with that reported in the AMP feasibility study and through
discussions with Postal Service managers. We determined that the data were
sufficiently reliable for the purposes of this report.




                                            14
Flint, MI Processing and Distribution
Center Consolidation                                                                 EN-AR-12-001


Prior Audit Coverage

                            Report Title                                Report         Final
                                                                        Number        Report
                                                                                       Date

 Detroit, Michigan Processing and Distribution Center Consolidation   EN-AR-08-005   7/17/2008

 Mojave Post Office Facility Consolidation                            EN-AR-08-006   9/17/2008

 Canton Processing and Distribution Facility Outgoing Mail            NO-AR-09-011   9/22/2009
 Consolidation

 New Castle Processing and Distribution Facility Outgoing Mail        NO-AR-10-002   2/1/2010
 Consolidation

 Manasota Processing and Distribution Center Consolidation            EN-AR-10-003   2/12/2010

 Lakeland Processing and Distribution Center Consolidation            EN-AR-10-004   2/12/2010

 Dallas Processing and Distribution Center Outgoing Mail              NO-AR-10-003   2/24/2010
 Consolidation

 Consolidation of Lima Processing and Distribution Facility Mail      NO-AR-10-007   7/2/2010
 Operations into the Toledo Processing and Distribution Center

 Charlottesville Processing and Distribution Facility Consolidation   NO-AR-10-008   8/3/2010

 Southeast Area Processing and Distribution Center Consolidations     EN-AR-10-006   9/17/2010


 Review of Wilkes-Barre, PA Processing and Distribution Facility      NO-AR-11-001   10/4/2010
 Consolidation

 Houston, TX Processing and Distribution Center Mail Consolidation    NO-AR-11-004   12/14/2010


 Huntington, WV Processing and Distribution Facility Consolidation    EN-AR-11-003   3/31/2011


 Beckley, WV Post Office Facility Consolidation                       EN-AR-11-005   4/21/2011


 Oshkosh, WI Processing and Distribution Facility Consolidation       NO-AR-11-006   7/29/2011




                                                    15
